~~

C@OCKLE

2311 Douglas Street L Brie fs E-Mail Address:
Omaha, Nebraska 68102-1214 €ga I Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-670
ARNOLD FLECK,
Petitioner,

v.
JOE WETCH; AUBREY FIEBELKORN-ZUGER;
TONY WEILER; and PENNY MILLER,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of April, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR REHEARING in the above entitled case. All
parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
TIMOTHY SANDEFUR*
JACOB HUEBERT
*Counsel of Record
GOLDWATER INSTITUTE
SCHARF-NORTON CENTER FOR

CONSTITUTIONAL LITIGATION

500 E. Coronado Road
Phoenix, AZ 85004
(602) 462-5000
litigation@goldwaterinstitute.org

Subscribed and sworn to before me this 3rd day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

  

Affiant

f GENERAL BOFARY-State of Mebraska
RENEE J. GOSS
{ify Comm. Exp. September §, 2028

 

  

Notary Public
Attorneys for Respondents

Sarah Elaine Harrington Goldstein & Russell, P.C. 202-362-0636
Counsel of Record 7475 Wisconsin Avenue
Suite 850
Bethesda, MD 20814

sharrington@goldsteinrussell.com

Party name: Joe Wetch, Aubrey Fiebelkorn-Zuger, and Tony Weiler

James Edward Nicolai North Dakota Office of Attorney General 701-328-3640
Counsel of Record 600 East Boulevard Avenue, Dept. 125
Bismarck, ND 58505-0400

jnicolai@nd.gov

Party name: Petra Mandigo Hulm

 
